*

i

6

1—

No.

fj p ii

®fje ®ntteb i§>tate£ Supreme Court
MARCIA CROCE,
Petitioner
v.

LORIN A CROCE
Respondent

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

Marcia Croce, Pro Se
342 Snyder Lane
Blairsville, PA 15717
(814) 410-5829
Email: mcroce@maradnet;.corn

FILED
OCT 05 2020
,SUPRE^iEFCOI^RTLnflK

I. QUESTIONS PRESENTED

1. Whether the Pennsylvania Judicial System erred in depriving the
low- income Petitioner of equal process and protection of the laws
guaranteed by the 14th Amendment.

2. Whether Pennsylvania Judicial System erred in violating
Petitioner’s civil rights when no protection to protect those rights
were made available during a closed-door hearing.

3. Whether the hearing master and the counsel for respondent under
PA Constitution Article 1§26, denied the right of request, when
Petitioner requested several times during hearing, for someone to
look over the agreement before signing.

4. Whether Hearing Master and Pennsylvania Judicial System failed
to acknowledge Petitioner’s duress from a life changing hardship
made known to Petitioner 12 hours before hearing.

5. Whether Political Bias displayed by the hearing master went
against the 14th amendment of the Constitution of the United
States as well as the 5th amendment while taking the 9th
amendment into consideration in a civil case.

ii

II.

LIST OF PARTIES

The parties involved are in the style of this case.

iii

III. TABLE OF CONTENTS
Page

I.

QUESTIONS PRESENTED

II.

PARTIES INVOLVED

in

III.

TABLE OF CONTENT

IV

IV.

TABLE OF AUTHORITIES

,vi

V.

OPINION DELIVERD IN LOWER COURTS

1

VI.

JURISTICTION ORDER IN QUESTION,

1

VII.

STATEMENT OF CASE

2

1

VIII. THEWRIT OF CERTIORARI SHOULD BE GRANTED
A.

B.

C.

7

A low-income Pro Se person, who has made every effort for legal
representation but could not attain an attorney to represent her due to
financial circumstances, and is forced into a Pro Se position in order to
receive justice, cannot equally represent herself at the same
knowledgeable level as a attorney with years of educational
background, experiences in cases, knowledge in the legal protocol and
has access to legal resources that is not available to the low-income Pro
Se person. Equal Protection of the law is violated.
10
Whether civil rights and due process were violated given the fact that
there was nothing to protect the rights of the Petitioner to show
burden of proof in the hearing room, leaving the Petitioner with lack
of protection to unethical actions, manipulations, and collusion that
occurred in the hearing, requests by Petitioner that were ignored by
Respondent’s Counsel and Hearing Master in taking the agreement
home to look over
12

Whether there was possible collusion between the Respondent’s
Counsel and a Pro Bono Lawyer ( Petitioner’s lawyer in another case)
the night before, and within a 12 hour time frame of divorce hearing,
causing the Petitioner duress before the hearing in the email she

iv

received from the Pro Bono Lawyer the night before, stating that she
will lose her home and needs to make arrangement to leave her home
immediately. After hearing, Petitioner found out that the Pro Bono
Lawyer and the Respondent’s Counsel work in the same building on
15
the same floor side by side

D.

IX.

Political outburst of bias was shown in the hearing by Master, in
bringing up political figure in anger and stating this while Petitioner
was fighting on an issue in which she was standing her ground. The
hearing master angry at the situation then said paraphrasing “this is
what he did not like about political figure and his supporters”, in which
cause the Petitioner to feel at first shock at what was just said, and
then the rest of the time felt political bias towards herself and her
18
beliefs in the hearing room

CONCLUSION

19

IV.

TABLE OF AUTHORITES

Cases
Brown v. Board of Education of Topeka, 347 U.S. 483 (1954).
In Re: Estate of Ratony, 277 A.2d 791 (Pa. 1971)
McIntyre v McIntyre No. 10470 Of 2011 C.A. (Pa.2013)
Paroly v. Paroly, 876 A.2d 1061 (Pa.super.2005)
Simeone v.Simeone, 581 A.2d 162 (Pa. 1990)

Pennsylvania Constitution Statues
Pennsylvania. Constitution Of the Commonwealth of Pennsylvania1790. Harrisburg: Busch, state printer, 1896.
PA CONST Art. I, § 1.
Pennsylvania. Constitution Of the Commonwealth
of Pennsylvania-1790. Harrisburg: Busch., state printer, 1896.
PA CONST Art. I, § 26.

Constitution of the United States
U.S. Const, amend. V, § 1. Equal Protection Under the Laws
U.S. Const, amend. IX, § 1. Equal Protection Under the Laws
U.S. Const, amend. XIV, § 1. Equal Protection Under the Laws

vi

V.

OPINIONS DELIVERED IN LOWER COURTS

The precedential opinion that the Supreme Court of Pennsylvania
reconsideration issued on June 8, 2020.

The precedential opinion that the Supreme Court of Pennsylvania
issued on May 6, 2020.

The precedential opinion that the Superior Court of Pennsylvania
reconsideration issued on October 24, 2019.

The precedential opinion that the Superior Court of Pennsylvania
issued on August 16, 2019.

The precedential opinion of the Court of Common Pleas of Indiana
County issued on January 15, 2019.

VI.

JURISDICTION ORDER IN QUESTION

On June 8th 2020, the Supreme Court of Pennsylvania issued a
precedential opinion that concludes: The Application for
Reconsideration was denied.

l

VII. STATEMENT OF THE CASE
Petitioner Marcia Croce went to a hearing on November 30th, 2018 in which
before this hearing Marcia Croce called the Master, Mr. Simon a few days
before, voicing her concerns over the hearing and not having representation of
an attorney. The master assured her that it would just be a talk, and nothing
had to be decided, that day.
Background which is pertinent to this case from another legal issue: On the
evening of November 29th 2018 Petitioner, Marcia Croce checked her email
that night and found a disturbing letter sent at 8:12 pm from the Pro Bono
lawyer that was handling her house case in which Lorin Croce, respondent,
and now ex-husband, had not paid on a business loan, so the bank in which
the marital home was put up for collateral for this loan, came after the
marital house, in which Petitioner was still living in, and it sold at sheriff sale.
Petitioner attempted to work out a deal with bank, in which the bank said
they were willing to do. The proposal was sent to the bank, in October, by Mr.
Himmelreich, the pro bono lawyer working on this case. Petitioner called
several times to Mr. Himmelreich to see what the status was on the proposal
and never received an answer back, until the evening of November 29th 2018
in which Petitioner received an email at 8:12 pm stating the bank was not

2

willing to work a deal and that Petitioner needs to leave her marital home
immediately. The next day November 30th at 9 am, was the hearing to talk.
Reason of importance: After the court hearing Petitioner discovered that the
Pro Bono Lawyer, Mr. Himmelreich and Ms. Tokarsky, respondent’s counsel
for the ex-husband Lorin Croce had the same mailing address and worked in
the same building on the same floor. Petitioner felt as soon as she saw the
same address that this was a possible act of collusion to cause petitioner to be
under severe duress. A phone call was made to Mr. Simon’s office the morning
of the hearing leaving a distressed messaged. This was recorded on the
answering machine at Hearing Master, Mr. Simon’s law firm. Then two calls
were place to petitioner’s veteran social worker, telling her basically Petitioner
cannot deal with this right now.
During this hearing many concerning things were happening in which
petitioner addressed in a letter to Judge William Martin only five days after
this hearing took place. Please note it would have been sooner had there not
been a weekend in between and also another day that the post office was
closed. The letter sent was notarized because petitioner at that time wanted to
make sure that her concerns were noted immediately and would be verified as
such.

3

In the hearing, and throughout the whole judicial process, Petitioner’s
constantly made her concerns known in the impossibility of attaining a
divorce lawyer and being of low income. This was a great disadvantage,
which presented an unequal balance of legal knowledge that existed
between Petitioner and Respondent’s Counsel. Petitioner had no legal
knowledge of her rights or the laws going into this hearing and
throughout the judicial system.
Petitioner addressed the fact, to the lower court, that Petitioner during
the hearing requested several times to have someone else look over the
agreement before Petitioner sign it. To clarify this, it would have been
friends who work in business careers, Veteran Social Worker, and
Petitioner, herself because Petitioner at that present time was in no
mental condition to make decisions at that time of this hearing, given
the news that night about Petitioner’s home and becoming homeless.
There was a major concern that Petitioner had nothing to protect
her civil rights and having burden of proof of Petitioner’s side of the
story. Having never been in a hearing before Petitioner did not know
what to expect and Petitioner was also told this would just be to talk. It
needs to be also noted that all court processes up to this point had

4

someone recording or transcriptions of what was said and done. It never
cross Petitioner’s mind as to her civil rights being violated by having no
protection in her behalf, to safeguard Petitioner in this hearing. During
this time, Petitioner felt she was being manipulated and bullied and
Petitioner addressed that concern at the time with both the Master and
Respondent’s Counsel that they were manipulating and bullying her.
There was nothing to record what was happening in that room to
protect Petitioners rights from what was happening.
Political bias was brought up. During a disagreement Petitioner had
with both the Master and the Respondent’s Counsel, the Master
brought up a statement something to the affect that this is what he
hates about a political figure and his supporters and it was said in an
angry outburst. Petitioner has said all along she can’t remember the
exact wording, but it was familiar to what Petitioner wrote above. Now
this is the Master who is overseeing this hearing, and for the record this
is public knowledge on Facebook that Petitioner is a supporter of this
political figure, and anyone can look that up. This is political bias in a
hearing situation and should have never enter this hearing.
Petitioner requested an appeal with the lower courts. Again,

5

Petitioner being of low income and not being able to retain a lawyer who
was willing to take payments or pro bono, left Petitioner forced to
represent herself to seek justice. This was with Judge William Martin.
On January 15, 2019. Judge Martin ruled on this and let the hearing
stand. In the Citations Judge Martin ruled with the following cases: In
Re: Estate of Ratony, 277 A.2d 791 (Pa.1971), Paroly v. Paroly, 876 A.2d
1061 (Pa.super.2005), Simeone v.Simeone, 581 A.2d 162 (Pa. 1990).
Petitioner feels these cases were nowhere near her situation that
happen in the Master hearing especially in the time frame of when she
reported her concerns about the hearing, but instead feels like the
court hearing resembles more McIntyre v McIntyre No. 10470 Of 2011
C.A. (Pa.2013), in which she never waived her rights verbally to not
having a lawyer.
Petitioner still feeling legally incapable on her own to represent
herself legally appealed to the Superior Court. Petitioner requested a
lawyer and was denied and was forced to get justice again by
representing herself. The superior court based their decision on lack of
a concise statement, in which Petitioner with no background and
understandability as to legal protocol was unaware, she had to turn a

6

concise statement in. Also, superior court ruled on lack of burden of
proof in which the fact of the matter is, the court failed to provide
protection for the low-income Petitioner, therefore creating an
inherently unequal hearing and violating her civil rights. The decision
was based on legal protocol of not turning in a concise statement and
taking only the Respondent’s Counsel and Hearing Master view on
what happened in the hearing room that day, who also have no burden
of proof and are in the position that what the Hearing Master and the
Respondent’s Counsel did in that hearing room that day was unethical,
which would have dire consequences. In doing so the Superior Court
shows a bias in favoring their own and disregarding the words of the
Petitioner. Due process in order to show burden of proof was denied to
Petitioner. None of the main concerns of civil rights violations,
discrimination, collusion, and political bias were address, and no
explanation was given, in both the lower and the superior court.

VIII. WRIT OF CERTIORARI SHOULD BE GRANTED
The questions presented in this Writ of Certiorari are clearly
deserving of this Court’s review. The main question that the United

7

States Supreme Court must address in this case is, did the financial
circumstances of being a low-income person affect the Petitioner due
process and equal protection under the law rights, under the 14th
Amendment of the Constitution of the United States which governs over
all laws? The answer is, yes. Unless proof can be shown otherwise or
answers can be defined more specifically by the lower courts and
Superior court, that is the answer, yes. The equality of representation of
a United States citizen who is forced into a Pro Se position due to the
impossibility to retain a lawyer, cannot receive due process and equal
protection under the law if representation on the other side of the
hearing/court has a law degree, court experiences and abundance of
extra resources and manpower to assist them. The United States
Supreme court must consider that the low-income Petitioner does not
have the mind set or ability to think as a lawyer does, in this case, legal
knowledge. The Petitioner lack the understandability as to what is
expected of her to follow in the law of legal protocol due to confusing
resources and the Petitioner lack the understandability and knowledge
of how the hearing and court system procedure worked putting her in a
inherently unequal position to fight for her justice. The court is aware

8

of many people who go to law school and take the bar exam do not pass
the bar exam the first time. Therefore, there is a very big gap of
inequality in lack of understandable knowledge, lack of experience, and
unfairness in understandable resources to a person who has never even
gone to law school, been in a court scenario, and does not understand
the only resources that are available to them, due to the fact that the
resources presented for Pro Se individuals, are presented in lawyer
language, in which the Petitioner is not a lawyer, and cannot
comprehend and understand what is expected of Petitioner in a court of
law. The Petitioner is then forced to represent herself, having no other
choice, to get the justice Petitioner deserve, because Petitioner cannot
retain a lawyer willing to take the case on, due to financial
circumstances and the inability to pay a high retainer fee at one time.
The United States Supreme Court must consider the difference between
two words here: choice and forced. The petitioner did not choose to
represent herself in this case, she was force to do so as the only mean to
receive justice. Due to her low-income status at the time, no other
means of seeking justice was available. The Petitioner also cannot
retain a Pro Bono lawyer, because there is no civil help in divorce with

9

Petitioner’s low- income status.
Additionally, the judicial system failed to put a safeguard in place
to protect the due process and civil rights of the Petitioner during a
divorce hearing. The petitioner’s rights to have means to show burden
of proof was violated and that right was taken away from her the
moment she step into the hearing and the door was closed. Accordingly,
this court should grant allowance of appeal.
A.

A low-income Pro Se person, who has made every effort for
legal representation but could not attain an attorney to
represent her due to financial circumstances, and is forced
into a Pro Se position in order to receive justice, cannot
equally represent herself at the same knowledgeable level as
an attorney with years of educational background, experiences
in cases, knowledge in the legal protocol and has access to
legal resources that is not available to the low-income Pro Se
person. Equal Protection of the law is violated

Even in this very case so far you can see the difference of equality
exhibited due to lack of knowledge of the legal system and then
inequality of the Petitioner representing herself. Pennsylvania
Superior Court ruled that the Concise Statement had not been
processed on time in which the question that needs to be answered here
is: If Petitioner has means to proper legal counsel or even access to legal
assistance with a knowledgeable person in the legal field, would a
concise statement been process on time? The answer is yes. But, due to

10

being forced into a Pro Se position to seek her justice in the court of law,
the Petitioner failed through lack of knowledge and inability to
understand and comprehend what was expected of her to do legally, a
Concise Statement was not delivered on time. Therefore, the main
ruling was made on legal protocol instead of unethical issues that were
brought up by petitioner. It should also be noted that Petitioner did her
best to try to retain legal counsel. Letters to the Pennsylvania Superior
Court were written in request for legal help and was denied. Petitioner
was also more than willing to make payments for legal help, but any
legal help that Petitioner tried to get wanted a retainer starting with
2,500 and others wanted more. No low-income person has 2,500
available, many are struggling just to pay bills and stabilize their
household. The lower court made a remark that the taxpayers don’t owe
low-income people access to legal representation. That is true, but the
justice system does owe low-income United States Citizens access to
equal protection under the United States Constitution, and to the
ability to receive justice when justice was not served and an injustice
was done to them. In the lower court and the hearing, had Petitioner
had legal representation, burden of proof could then be shown by having

11

someone with her on her side. Without legal representation and access
to understandable resources for someone forced into Pro Se position to
get that justice, the 14th Amendment of the Constitution “Equal
Protection under the Law Clause” was violated.
Brown vs. Board of Education of Topeka was a case in which black
and whites had a similar argument in which it was said that even
though situation of the schools in which there was segregation of black
in white were equal in a tangible sense, it was not equal in a intangible
sense thus making it inherently unequal and in violations of the Equal
Protection under the law clause of the 14th Amendment. We have the
same exact circumstance going on in the judicial system between a lowincome unrepresented Pro Se person, who is forced to represent
themselves vs the person who has the ability to have legal counsel.
There is an intangible difference as mentioned between the two sides in
a court room setting, that creates a intangible situation of lack of legal
knowledge, lack of experience, and lack of legal resources.

B. Whether civil rights and due process is violated in the fact that in
the hearing room there was nothing to protect the legal rights of
the Petitioner to show burden of proof, leaving the Petitioner
with lack of protection to unethical actions, manipulations, and
collusion that occurred in the hearing, and most importantly
12

requests by petitioner that were ignored by Respondent’s
Counsel and Hearing Master in taking the agreement to someone
to have them look the agreement over
There was no protection in the hearing room for the Petitioner to
validate what went on in the hearing room. Because of that failure by
the judicial system to guarantee civil rights were protected, when ask
by lower courts to present burden of proof, and when ask by the
Pennsylvania superior court to present burden of proof, presenting
burden of proof was impossible for petitioner to do so. United States
Supreme court must look at the situation and see that this was a two
against one scenario and in some cases three against one in a room
with no one to back up Petitioner’s version of what happened, thus
leaving her without the right to equal protection under the law.
Petitioner immediately voiced concerns of what went on in the hearing
in a notarized letter to President Judge of the lower court, Judge
William Martin and sent letter to the hearing master and Respondent’s
counsel. This was written in a 5-day timeframe and would have been
delivered sooner has there not been a weekend in between. United
States Supreme court must take into consideration that in a reverse
decision three people have a lot to lose here, but at the same time
United States Supreme court also must take into consideration the
13

actions that did happen behind closed doors with no protection for
Petitioner. Master and Respondent’s Council ignored the request for
Petitioner to take agreement to be looked over, and manipulated the
hearing to get the result that they wanted. To make it an equal and fair
hearing, as well as a safeguard to protect Petitioner, there should have
been a protocol mandatory in that hearing room that day, so that the
Petitioner had the ability to show burden of proof. United States
Supreme court has to consider these three people in protecting their
own interest and reputations will have no choice at this time but to
downplay the behavior that happened. What happened was unethical
manipulations and scare tactics, bullying, ignoring request for someone
to look over agreement. None of this is being recorded in this hearing
and had there been something in there to validate the hearing, burden
of proof would be there for petitioner, or this kind of unethical behavior
would not have existed due to the fact that there was something in
there to protect the civil rights of petitioner from this happening. When
Petitioner kept repeating, she wanted someone to look over the
agreement, that would have been recorded. United States Supreme
Court needs to ask themselves are they willing to overlook the

14

unethical actions that took place due to the fact of no burden of proof,
and no burden of proof because no protection was put into place to
protect the rights of a United States Citizen in a room by herself with
three people who sole purpose that day was to get the agreement sign
and done no matter what it would take meaning ignoring the request to
have someone look the agreement over which was requested many
times. Is that not a right of the Petitioner in a hearing, in which keep
in mind, was under severe duress, to ask to have someone look the
agreement over and still be ignored? Should the master and
Respondent’s counsel have ignored that request? Answer, no.

C. Whether there was possible collusion between the Respondent’s
Counsel and a Pro Bono Lawyer ( Petitioner lawyer in another
case) the night before and within a 12 hour time frame of divorce
hearing, to cause the Petitioner to become distress before the
hearing by the email she received from the Pro Bono Lawyer the
night before, stating that she will lose her home and needs to
make arrangement to leave her home immediately.
Then after hearing, Petitioner finding out that the Pro Bono
Lawyer and the Respondent’s Counsel work in the same building
on the same floor side by side.
United States Supreme Court needs to consider timing and the amount
of mental duress this would cause a normal person in this type of
situation. United States Supreme Court needs to consider what effect
15

this would have on Petitioners mind-set and level of duress and put
themselves into Petitioners shoes. Respondent, Lorin Croce, exhusband’s business, Westmoreland Physician Supply, takes out a loan
in which Petitioner and Respondent co-sign their house. Respondent
abandons home and Petitioner. At this point of time Petitioner has no
access to any correspondents going on about loan. Petitioner is made
aware of problems with the loan. Other complications arise that is too
long of story but devastating none the less, and house is sold at sheriff
sale. Petitioner calls pro Bono lawyer back to discuss matter and also
informs Pro Bono lawyer that bank who now owns deed to house said
they are willing to try to work a deal out with Petitioner but needs a
proposal. Proposal is written. Petitioner calls Pro Bono lawyer a few
times to see if he has heard anything, almost a month goes by. On
11/29/2018 Pro Bono Lawyer emails an email at 8:12 at night stating
bank will not work with Petitioner and she must make arrangement to
leave house immediately. On 11/30/2018 hearing to discuss divorce was
scheduled at 9 am. Petitioner could not sleep. That morning Petitioner
made a call to master office leaving a distressful call about losing keys
and crying on answering machine. Petitioner’s also called Veteran

16

Social worker, Carla Coello twice in which she states she cannot handle
everything happening. Petitioner then goes to hearing in which all that
was stated above with unethical behavior was taking place. After
hearing, and before lower court hearing with Judge Martin, Petitioner
is sending out mail, when Petitioner notices that the Pro Bono lawyer
and Respondent’s counsel work, in the very same building on the same
floor. The United States Supreme Court needs to ask themselves with
the timing of when proposal was first sent to bank and when the email
was sent and the timing of that, could this be possible collusion in order
to put pressure on Petitioner to sign an agreement that day? The
answer is yes. The reason would be, petitioner would go into this
hearing under duress of losing her home and being homeless while also
having the duress of a divorce. United States Supreme court must put
themselves in Petitioner’s position an ask themselves, would being
notified of losing your home and being homeless within 12 hours of
attending a hearing to talk over divorce, in which you have no legal
representation cause you to be under duress and not of stable mindset
to make decisions? The answer is yes. This must be looked at and
considered possible collusion between Pro Bono lawyer and Respondent

17

counsel. The timing was no coincidence, this was done on purpose.

D. Political outburst of bias was shown in the hearing by Master, in
bringing up political figure in anger and stating this while
Petitioner was fighting on an issue in which she was standing her
ground. The hearing master angry at the situation then said this
is what he did not like about political figure and his supporters in
which cause the Petitioner to at first feel shocked at what was
just said, and then the rest of the time felt political bias towards
her and her beliefs in the hearing room.

Political bias was shown in the hearing. An outburst by the master of his
dislike for a political figure and followers was said. Petitioner is a wellknown supporter of this person and that can be looked up at any time on
Facebook. The master was on Facebook, even at the hearing and did use
the internet to check issues out. Even if Master didn’t know Petitioner
was a supporter of this political figure, political overtone of any type
should not be exhibited in a hearing. This was political bias by the
master, and this was just another layer of duress and concern for the
Petitioner to deal with in the hearing that was not being recorded or
Tran scripted. Petitioner felt from this point on, political bias played into
this hearing when this was brought up in anger by master during a time
when Petitioner was fighting against an issue that made both the

18

master and Respondent counsel upset at the time, because they were
having a hard time changing the Petitioner’s mind on a issue.

IX.

CONCLUSION

In conclusion I ask the United State Supreme Court to look over the
Writ of Certiorari and ask themselves the question. Was equal justice
being served to Petitioner? If the answer is No, then this is an
opportunity for the highest court in the nation to right this wrong of
social injustice within the judicial system, which is happening all across
our great nation to Americans that cannot attain lawyers. Who are not
by choice, but forced to seek out justice, due to their low-income status
because many lawyers want high retainers upfront which no lowincome person can afford and the Pro Bono system is overburden and
does not handle civil cases such as Petitioner’s divorce case.
The Pennsylvania Judicial System has lost their way on what is fair
and just in this democracy. The Croce vs. Croce case was a cookie cut
case in which the judicial system disregarded the Petitioner’s rights
under the Constitution of the United States from the very beginning in

19

the hearing. From that point on it was not about justice being served
but it became about protecting the judicial system and the lawyers and
judges involved. The thought never crossed the mind of the PA judicial
system that a low-income person would stand up and fight against this
injustice being done to herself. That injustice is, Petitioner being robbed
of the 14th Amendment right to Equal Protection under the law and a
fair, equal hearing. The judicial process has become not about fairness
and justice but has become about he can pay for the best attorney. I
would like the United State Supreme Court to understand this injustice
is just not happening to just the Petitioner. This has been an issue in
the court system for many years now with the rights of low-income
people not receiving their justice in the court system, due to an
overburden system and lawyers who want high retainers in which no
low-income person can afford. This is a national problem which needs to
have attention brought to it in order for it to evolve and be corrected.
Everyone deserved the American promise of equal access to justice.
Even if it is a civil case of divorce. In this case there was no equal
access to justice and the Petitioners rights under the Constitution were
violated throughout the whole judicial process in the Pennsylvania

20

court system.

For these reasons, the Writ of Certiorari should be granted.

Respectfully submitted,

Dated: Dec 8th, 2020

frw 4 'U.
Marcia Croce
342 Snyder Lane
Blairsville, PA 15717
(814) 410-5829

Counsel for Petitioner
Marcia Croce, Pro Se

21

